                                                                             Report No. DODIG-2014-049




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 27, 2014




                     DoD Considered Small Business
                     Innovation Research Intellectual
                     Property Protections in Phase III
                     Contracts, but Program
                     Improvements Are Needed




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       DoD Considered Small Business Innovation Research
                                       Intellectual Property Protections in Phase III
                                       Contracts, but Program Improvements Are Needed


March 27, 2014                                         Finding Continued

Objective                                              However, DoD contracting and U.S. Army Medical Research and
                                                       Materiel Command personnel inconsistently followed policies that
In response to a requirement in House Armed            governed SBIR intellectual property protections because of unclear
Services Committee Report 112-479, to                  and inconsistent DoD and SBA requirements.
accompany the National Defense Authorization
Act for FY 2013, we reviewed 22 Small Business         In addition, DoD organizations did not:
Innovation Research (SBIR) Phase III contracts,
with a combined base award value of about                 •	 have any documented instances of contractor intellectual
$244.9 million, to determine whether the Services            property complaints within the SBIR Program because DoD
properly awarded SBIR Phase III contracts to other           personnel were not required to track complaints and believed
than small businesses. Specifically, we determined           that none existed; and
whether the Services considered small business
intellectual property rights and properly notified        •	 know the complete universe of SBIR Phase III contract awards
the Small Business Administration (SBA) of the               because no mechanism existed to fully track SBIR Phase III
contract award.                                              contracts.

                                                       DoD organizations’ inconsistent interpretation of unclear
Finding                                                requirements hinders program oversight and weakens protections
                                                       over small business intellectual property. Without a clear
U.S. Army Medical Research Acquisition Activity,
                                                       interpretation of existing policy, DoD organizations could face
Naval Air Systems Command, Naval Sea Systems
                                                       obstacles in exercising their rights to SBIR data. DoD does not
Command, and Air Force Research Laboratory
                                                       have reliable data to report the success of the DoD SBIR Program.
contracting personnel:
                                                       As a result, DoD’s program oversight and the protections over
                                                       small business intellectual property within the SBIR Program is
   •	 properly awarded all 11 SBIR Phase III
                                                       weakened, and information provided to Congress is not complete.
      contracts that were awarded to other than
      small businesses because the awardee
      owned the SBIR data rights; and                  Recommendations
   •	 considered SBIR intellectual property            DoD officials should:
      rights when awarding 21 of 22 contracts by
      including the required contract clause.             •	 develop training and issue guidance that will allow for a
                                                             uniform interpretation of intellectual property protections
                                                             across DoD;




Visit us on the web at www.dodig.mil


                                                                           DODIG-2014-049 (Project No. D2013-D000CG-0066.000 ) │ i
                                       Results in Brief
                                       DoD Considered Small Business Innovation Research
                                       Intellectual Property Protections in Phase III
                                       Contracts, but Program Improvements Are Needed



  Recommendations Continued                                          •	 timely SBA notification requirements; and

      •	 issue guidance to improve the accuracy of SBIR              •	 accuracy and uniformity of SBIR database information.
         information being entered into existing databases; and
                                                                  However, the deputy director did not fully address the
      •	 address inconsistencies in DoD regulations regarding     actions needed to allow for a uniform interpretation of
         intellectual property protections.                       intellectual property protections across DoD or those
                                                                  needed to increase the accuracy of SBIR information being
  Management Comments and                                         entered into existing databases.

  Our Response                                                    Comments from the Director, Defense Procurement
  The Deputy Director, Policy and Procurement, DoD Office of      Acquisition Policy addressed all specifics of the
  Small Business Programs, responding for the Administrator,      recommendation. He agreed to address inconsistencies in
  DoD Office of Small Business Programs, SBIR Office, partially   DoD regulations. The director stated DoD would work with
  addressed the recommendations to develop training and           SBA to address the inconsistencies regarding intellectual
  issue guidance. The deputy director agreed with the             property and noted DoD has taken steps to clarify guidance
  recommendations and stated the DoD Office of Small Business     on the initiation and extension of the protection period of
  Programs would address the following topics during the          SBIR generated data.
  SBIR/Small Business Technology Transfer annual training
  workshop planned for June 2014:                                 We request that the Administrator, DoD Office of Small
                                                                  Business Programs, SBIR Office, provide comments in
      •	 standard intellectual property protections;              response to this report. Please see the Recommendations
                                                                  Table on the following page.
      •	 use of the data assertions table;

      •	 when the SBIR protection period begins and when it
         can be extended;




ii │ DODIG-2014-049 (Project No. D2013-D000CG-0066.000)
Recommendations Table
                                                 Recommendations             No Additional
                   Management                    Requiring Comment         Comments Required
 Administrator, DoD Office of Small Business
 Programs, Small Business Innovation Research    1.a, 1.b, and 1.c.
 Office
 Director, Defense Procurement and Acquisition                             2.
 Policy

Please provide comments by April 25, 2014.




                                                               DODIG-2014-049 (Project No. D2013-D000CG-0066.000 ) │ iii
                                                 INSPECTOR GENERAL
                                                DEPARTMENT OF DEFENSE
                                                4800 MARK CENTER DRIVE
                                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                                 March 27, 2014

             MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                              TECHNOLOGY, AND LOGISTICS
                            ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
                              AND COMPTROLLER)
                            NAVAL INSPECTOR GENERAL
                            AUDITOR GENERAL, DEPARTMENT OF THE ARMY

             SUBJECT: DoD Considered Small Business Innovation Research Intellectual Property Pr otections
                      in Phase III Contracts, but Program Improvements Are Needed
                      (Report No. DODIG-2014-049)

             We are providing this report for review and comment. We performed this audit in response to the
             House Armed Services Committee Report 112-479 that accompanied the FY 2013 National Defense
             Authorization Act. DoD organizations properly awarded Small Business Innovation Research (SBIR)
             Phase III contracts to other than small businesses and considered SBIR intellectual property rights
             during the award. However, inconsistent guidance and tracking efforts hinder the program. We
             considered comments from the Deputy Director, Policy and Procurement, DoD Office of Small
             Business Programs, responding for the Administrator, DoD Office of Small Business Programs,
             SBIR Office and the Director, Defense Procurement and Acquisition Policy, on a draft of this report
             when preparing the final report.

             DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments from
             the Administrator, DoD Office of Small Business Programs, SBIR Office partially addressed the
             recommendations. The deputy director's comments did not fully address the actions needed to
             allow for a uniform interpretation of intellectual property protections across DoD or those needed
             to increase the accuracy of SBIR information being entered into existing databases. Therefore, we
             request that the Administrator, DoD Office of Small Business Programs, SBIR Office comment on
             Recommendations l.a, l.b, and l.c by April 25, 2014. Comments from the Director, Defense
             Procurement and Acquisition Policy addressed all specifics of the recommendation an:d conformed
             to the requirements of DoD Directive 7650.3; therefore, we do not require additional comments.

             Please send a PDF file containing your comments to audapi@dodig.mil. Copies of your comments
             must have the actual signature of the authorizing official for your organization. We cannot accept
             the /Signed/ symbol in place of the actual signature. If you arrange to send classified ~omments
             electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

             We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-9077
             (DSN-664 9077).


                                                        (\      v         ·~   /.   ())~~
                                                        chac      eline L. Wicecarver
                                                             Assistant Inspector General
                                                             Acquisition, Parts, and Inventory


iv   I DODIG-2014-049
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls ____________________________________________________________________4

Finding. Inconsistent Guidance and Tracking
Efforts May Hinder SBIR Program_ _______________________________________5
Phase III Contracts Were Properly Awarded to Other Than Small Businesses _____________6
Contracting Personnel Considered Intellectual Property Protections _ _____________________7
Personnel Interpreted Intellectual Property Protections Differently           _____________________8
Personnel Did Not Report To SBA On Proposed Phase III Contracts
Awarded To Other Than the SBIR Awardee____________________________________________________9
Personnel Relied on Inconsistent Policies_ __________________________________________________ 10
No Documentation of Contractor Intellectual Property Complaints ______________________ 11
Accurate Tracking Mechanisms Are Needed ________________________________________________ 12
Conclusion______________________________________________________________________________________ 16
Recommendations, Management Comments, and Our Response__________________________ 16

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 21
      Universe and Sample Information _____________________________________________________ 21
      Review of Documentation and Interviews____________________________________________ 22
      Use of Computer-Processed Data ______________________________________________________ 24
Appendix B. Prior Coverage__________________________________________________________________ 25
Appendix C. Criteria __________________________________________________________________________ 27
Appendix D. Contracts Reviewed_____________________________________________________________ 31

Management Comments_____________________________________________________ 34
DoD Office of Small Business Programs______________________________________________________ 34
Defense Procurement and Acquisition Policy________________________________________________ 36

Acronyms and Abbreviations______________________________________________ 37


                                                                                                       DODIG-2014-049 │ v
                                                                                                                                     Introduction




Introduction
Objective
Our objective was to determine whether the Services properly awarded Phase III
Small Business Innovation Research (SBIR) contracts to other than small businesses.
Specifically, we determined whether the Services considered small business intellectual
property rights and properly notified the Small Business Administration (SBA) of
the contract award. See Appendix A for scope and methodology and Appendix B for
prior coverage.


Background
The House Armed Services Committee was concerned with protecting small business
intellectual property rights when doing business with DoD. As noted in the Panel on
Business Challenges in the Defense Industry’s March 2012 report, “Challenges to Doing
Business with the Department of Defense,” “smaller businesses can experience particular
difficulties in protecting their rights because of their size and the comparatively limited
resources available to them.” The report also discussed contractors’ concerns with
the breadth of technical data rights the Government acquired and the Government’s
compliance with restrictions over those rights. As a result, the House Armed Services
Committee Report 112-479, which accompanied the FY 2013 National Defense
Authorization Act, directed the DoD Inspector General to review the treatment of small
business intellectual property in DoD contract awards.


The Small Business Innovation Research Program
The SBIR Program is a three-phase program that encourages domestic small businesses
to engage in Federal research and development with the potential for commercialization.
Phase I (project feasibility) determines the scientific and technical merit and feasibility
of the ideas submitted.                  Phase II (project development) further develops Phase I
research and development efforts. Phase III (commercialization) is oriented towards
commercialization of SBIR research in the private sector, or in the Government sector
using non-SBIR funds. Participating agencies must use SBIR funds to award SBIR
Phase I and II contracts to eligible small businesses. SBIR Phase III awards can be
made to businesses of any size; however, SBIR policies and regulations intend that
agencies generally award SBIR Phase III contracts to the SBIR developer. For example,
Section 638, title 15, United States Code (15 U.S.C. § 638 [2012]),1 subsection r(4) states,

	1	
      Section 638, title 15, United States Code (2007) was updated in 2012 during the scope of our review. We generically refer
      to both versions of 15 U.S.C. § 638 unless noted otherwise.




                                                                                                                                  DODIG-2014-049 │ 1
Introduction



                 to the greatest extent practicable, Federal agencies and Federal prime contractors shall
                 issue Phase III awards relating to technology, including sole-source awards, to the SBIR
                 award recipient that developed the technology.

                 The SBIR Program was established under the Small Business Innovation Development
                 Act of 1982 to stimulate technological innovation; to use small business to meet Federal
                 research and development needs; to foster and encourage participation by minority
                 and disadvantaged persons in technological innovations; and to increase private sector
                 commercialization innovations derived from Federal research and development.
                 The SBA serves as the coordinating agency. The SBIR Program is mandatory for certain
                 agencies. DoD was one of 11 Federal agencies required to participate in the program.


                 SBIR Guidance
                 Multiple regulations and guidance govern the SBIR Program. The FY 2012 National
                 Defense Authorization Act, sections 5101 to 5168, “SBIR and STTR [Small Business
                 Technology Transfer] Reauthorization,” requires agencies to track SBIR Phase III
                 awards. Section 638, title 15, United States Code, provides the minimum requirements
                 for the SBIR Program and directs SBA to issue policy directives for the general conduct
                 of the SBIR Program within the Federal Government, including providing for the
                 retention of rights in data generated in the performance of the contract by the small
                 business concern. The SBA Office of Technology issued policy through the SBA SBIR
                 Policy Directive as the overall program administrator. The SBA SBIR Policy Directive
                 was updated in the Federal Register on August 6, 2012.2 Furthermore, SBA SBIR Policy
                 Directive section 4(c)(5) states, “there is no limit on the number, duration, type, or
                 dollar value of Phase III awards made to a business concern” and SBA SBIR Policy
                 Directive section 4(c)(6) states, “the small business size limits for Phase I and II awards
                 do not apply to Phase III awards.”

                 DoD agencies participating in the SBIR Program are required to include the Defense
                 Federal Acquisition Regulation Supplement (DFARS) contract clause 252.227-7018,
                 “Rights in Noncommercial Technical Data and Computer Software—SBIR Program,”
                 in all SBIR contracts. The clause provides for intellectual property protections such
                 as the use of an assertions table3 that specifically identifies contractor intellectual
                 property provided to the Government. Proposed updates to DFARS 252.227-7018 are
                 included in open DFARS case 2010-D001, “Patents, Data, and Copyrights.” Open DFARS

                 	2	
                        The 2002 SBA SBIR Policy Directive was updated in the Federal Register, Volume 77, No. 151, on August 6, 2012.
                        We generically refer to both versions of the directive as the SBA SBIR Policy Directive, unless noted otherwise.
                 	 3	
                        The assertions table identifies the data the contractor or subcontractor will furnish to the Government with restrictions,
                        the basis for assertion, the type of rights being asserted, and who is making the assertion. The assertions table is not
                        unique to the SBIR Program and is used throughout DoD contracting to identify contractor rights.




2 │ DODIG-2014-049
                                                                                                                                Introduction



case 2010-D001 was proposed on September 27, 2010, by the Defense Procurement
Acquisition and Policy Directorate in the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics. As of January 12, 2014, this open DFARS case is on
hold. Appendix C provides additional information on criteria.


DoD Participation in SBIR Program
During our review, DoD was the largest participant in the Federal SBIR Program. The
DoD Office of Small Business Programs, SBIR Office (DoD OSBP SBIR) provides the
highest level of oversight over the DoD SBIR Program and issues the DoD SBIR Desk
Reference for Contracting and Payment, which mirrors much of the SBA SBIR Policy
Directive. Each Service has a program office that oversees SBIR-related efforts. Each
organization reviewed has designated personnel to administer the SBIR Program on an
organizational level, with the exception of the Air Force Research Laboratory (AFRL).
The Air Force SBIR Program Office oversees SBIR efforts throughout the Air Force.
Services and organizations issue overall guidance or policy on the SBIR Program,
but none provided a detailed discussion on intellectual property considerations over
SBIR Phase III contracting.


Contracts Reviewed
In total, we reviewed 22 contracts coded in the Federal Procurement Data System-Next
Generation (FPDS-NG) as SBIR Phase III contracts, with a combined base value of about
$244.9 million.4 See Appendix A for contract selection. DoD contracting personnel
awarded 11 of the 22 contracts to other than small businesses. The following organizations
awarded the 22 contracts reviewed:

              •	 U.S. Army Medical Research Acquisition Activity (USAMRAA),5 Fort Detrick,
                  Maryland, 4 contracts, valued at about $6.2 million.

              •	 Naval Air Systems Command (NAVAIR), Patuxent River, Maryland, 5 contracts,
                  valued at about $161.6 million.

              •	 Naval Sea Systems Command (NAVSEA), Washington Navy Yard, D.C.,
                  5 contracts, valued at about $32.7 million.

              •	 AFRL, Wright Patterson Air Force Base, Ohio, 8 contracts, valued at about
                  $44.3 million.

See Appendix D for specific contracts reviewed.

	4	
       The combined base award-value excludes any amounts for option periods and includes the maximum allowable amount for
       delivery order-type contracts and basic ordering agreements.
	 5	
       USAMRAA is the contracting element of U.S. Army Medical Research and Materiel Command and provides support to the
       Command headquarters and its worldwide network of laboratories and medical logistics organizations.


                                                                                                                             DODIG-2014-049 │ 3
Introduction



                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” May 30,
                 2013, requires DoD organizations to implement a comprehensive system of internal
                 controls that provides reasonable assurance that programs are operating as intended
                 and to evaluate the effectiveness of the controls. We identified an internal control
                 weakness. DoD OSBP SBIR used reporting systems that did not fully track SBIR Phase III
                 awards to support the success of a congressionally authorized program. However, DoD
                 OSBP SBIR officials were aware of each system’s limitations and were taking steps to
                 improve reporting of DoD SBIR Program accomplishments. We will provide a copy of
                 the final report to the senior official responsible for internal controls in the DoD OSBP.




4 │ DODIG-2014-049
                                                                                                    Finding




Finding
Inconsistent Guidance and Tracking Efforts May Hinder
SBIR Program

USAMRAA, NAVSEA, NAVAIR, and AFRL contracting personnel properly awarded all
11 SBIR Phase III contracts reviewed to other than small businesses, valued at about
$176 million. USAMRAA, NAVSEA, NAVAIR, and AFRL considered SBIR intellectual
property rights in 21 of the 22 SBIR Phase III contracts, valued at about $244.6 million
by including the required contract clause.

However, USAMRAA, U.S. Army Medical Research and Materiel Command (USAMRMC),
NAVSEA, NAVAIR, and AFRL personnel inconsistently followed policies that governed
intellectual property protections in the SBIR Program. Specifically, DoD personnel:

        •	 had varying interpretations of DFARS 252.227-7018, which provides for SBIR
           intellectual property protections and requires the use of a data assertions list;

        •	 did not report to SBA on the nine planned SBIR Phase III contracts awarded
           to a SBIR awardee that did not develop the technology and was an other than
           small business; and

        •	 disagreed on when the SBIR data rights protection period started and when
           those rights expired.

This occurred because of unclear or inconsistent requirements in the DFARS and the
SBA SBIR Policy Directive.

In addition, personnel at DoD OSBP SBIR, Army, Navy, and Air Force SBIR Program
Offices, USAMRMC, USAMRAA, NAVSEA, NAVAIR, and AFRL did not:

        •	 have any documentation or recall any contractor intellectual property
           complaints within the SBIR Program. DoD personnel were not required to
           track general or SBIR-related intellectual property concerns or complaints
           and believed intellectual property concerns did not exist, and

        •	 know the complete universe of SBIR Phase III contract awards because
           they did not have a mechanism in place to track all SBIR Phase III contracts,
           used incomplete and sometimes unreliable databases for SBIR Phase III
           information, and used different methods to verify the information contained
           within them.


                                                                                           DODIG-2014-049 │ 5
Finding



                 As a result, DoD’s inconsistent interpretation of unclear SBIR Program requirements
                 hinders program oversight and weakens the protections over small business intellectual
                 property within the SBIR Program. DoD organizations will encounter challenges in
                 exercising their rights to SBIR data without a clear, standardized interpretation of
                 existing SBIR policy. In addition, DoD does not have complete data to report the success
                 of the DoD SBIR Program. As a result, DoD’s program oversight and the protections
                 over small business intellectual property within the SBIR Program are weakened, and
                 information provided to Congress is not complete.


                 Phase III Contracts Were Properly Awarded to Other
                 Than Small Businesses
                 USAMRAA, NAVSEA, NAVAIR, and AFRL contracting personnel properly awarded
                 all 11 SBIR Phase III contracts reviewed to other than
                 small businesses, with a combined base value of about
                                                                                    USAMRAA,
                 $176 million. SBA SBIR Policy Directive section 4(c)(7)             NAVSEA,
                 states agencies should issue SBIR Phase III awards,            NAVAIR, and AFRL
                 including sole-source contracts, to the SBIR awardee          contracting personnel
                                                                               properly awarded all
                 that developed the technology. Section 638, title 15,
                                                                                 11 SBIR Phase III
                 United States Code subsection r(4), was updated in            contracts reviewed to
                 2012 to include this requirement.      However, small           other than small
                 businesses innovators were not restricted by any policy            businesses.
                 or regulation from selling their businesses or their SBIR
                 Phase III intellectual property rights to another company.

                 Contracting officers primarily awarded SBIR Phase III contracts to other than small
                 businesses because larger companies acquired the developing SBIR companies. Of the
                 11 contracts awarded to other than small business, 9 SBIR developers were acquired by
                 a large business. The remaining contractors grew into large businesses. SBA SBIR Policy
                 Directive section 4(c)(5)(6) states SBIR Phase I and II size limitations do not apply to
                 SBIR Phase III awards with no limit on the number, duration, or type of SBIR Phase III
                 awards made to a business. For example, NAVAIR awarded a SBIR Phase I and II contract
                 for the research and design of a flat-panel multi-function color display to support the
                 forced retrofit of the existing monochrome display in the T-45 aircraft. However, the
                 contractor grew into a large business before the SBIR Phase III contract award. See
                 Table 1 for the 11 SBIR Phase III contracts awarded to other than small businesses.




6 │ DODIG-2014-049
                                                                                                          Finding



Table 1. Contract Awards to Other Than Small Businesses
                                                           Small Business        Acquired By
         Agency                      Contract                  Grew             Large Business
   1     AFRL                FA8650-10-C-3038                                           X
   2     AFRL                FA8650-10-C-7013                    X
   3     AFRL                FA8650-10-C-7037                                           X
   4     NAVAIR              N00019-10-C-0065                                           X
   5     NAVAIR              N00019-11-G-0014                                           X
   6     NAVAIR              N00019-12-C-2005                                           X
   7     NAVAIR              N00019-12-C-0062                    X
   8     NAVSEA              N00024-11-C-5205                                           X
   9     NAVSEA              N00024-12-C-6311                                           X
   10    USAMRAA             W81XWH-10-C-0255                                           X
   11    USAMRAA             W81XWH-10-C-0237                                           X



Contracting Personnel Considered Intellectual Property
Protections
DoD contracting personnel considered intellectual property rights in 21 of the 22 SBIR
Phase III awards, valued at about $244.6 million, by including DFARS 252.227-7018
in the contracts.     The DoD SBIR Desk Reference for Contracting and Payment
requires all SBIR contracts to include DFARS 252.227-7018. With limited exceptions,
DFARS 252.227-7018 provides SBIR protections to all technical data and computer
software generated under a SBIR contract. In addition, DFARS 252.227-7018 states
during the 5-year protection period,

           the Government may not release or disclose SBIR data to any person,
           other than its support services contractors, except as expressly permitted
           by the contractor; for evaluation purposes; or a release, disclosure, or
           use that is necessary for emergency repair or overhaul of items operated
           by the Government.


However, USAMRAA contracting personnel did not include DFARS 252.227-7018 in
contract W81XWH-11-P-0660, a $330,000 procurement. According to the USAMRAA
contracting officer, he did not include the SBIR clause in the contract because it was a
small, one-time commercial purchase. We are not making a recommendation because
the USAMRAA contracting personnel included the required clause in the remaining
contracts reviewed and the contracting officer who oversees all SBIR contracts is aware
of the requirement.



                                                                                                 DODIG-2014-049 │ 7
Finding



                 Personnel Interpreted Intellectual Property Protections
                 Differently
                 USAMRAA, USAMRMC,6 NAVSEA, NAVAIR, and AFRL personnel stated DFARS 252.227-
                 7018 was the primary method used to provide intellectual property protections to
                 small businesses and was included in the contract as a built-in protection over SBIR
                 data rights; however, personnel interpreted the clause’s protections differently.
                 DFARS 252.227-7018 is required in all SBIR contracts and requires the contractor to
                 identify assertions in an attachment to the contract on any technical data or software
                 to be furnished to the Government with restrictions on use, release, or disclosure. The
                 assertions table identifies the data the contractor or subcontractor will furnish to the
                 Government with restrictions, the basis for assertion, the type of rights being asserted,
                 and who is making the assertion. The assertions table is not unique to the SBIR Program
                 and is used throughout DoD contracting to identify contractor rights. The contractor
                 provides the Government the listing of assertions (assertions table) in an attachment
                 before contract award; however, other assertions may be identified after award and
                 shall be submitted to the contracting officer before the scheduled date of delivery.

                 For example:

                                •	 NAVSEA contracting personnel stated the assertions table attached to the
                                   contract would identify and protect contractor SBIR data rights. However,
                                   this is not a requirement under DFARS 252.227-7018; contractors were not
                                   required to report any SBIR data generated under the subject contract.

                                •	 USAMRAA contracting personnel were uncertain how the assertions table
                                   was associated with the SBIR Program and believed DFARS 252.227-7018
                                   was the only mechanism that provided SBIR protections;

                                •	 AFRL contracting personnel believed the assertions table and DFARS could be
                                   used interchangeably to provide SBIR protections; and

                                •	 A NAVAIR Program Attorney stated a contractor must assert their rights to
                                   SBIR data on the assertions table or face losing their rights to it. A NAVAIR
                                   Intellectual Property Attorney believed the table should be completed, but
                                   would not affect the contractor’s rights to data if it was not completed.

                 USAMRMC, USAMRAA, NAVSEA, NAVAIR, and AFRL personnel agreed it was ultimately up
                 to the contractor to protect their intellectual property and stated DFARS 252.227-7018

                 	 6	
                        USAMRMC is the Army’s medical materiel developer responsible for medical research, development, and acquisition and
                        medical logistics management.




8 │ DODIG-2014-049
                                                                                                 Finding



was included in the contract as a built-in protection. However, in 20 of the 21 contracts
that included DFARS 252.227-7018, the specific protections were unclear because the
contracts only referenced the clause. Available policy and guidance did not provide
additional explanation on the protections provided by the assertions table. As a result,
the only information about the protections provided by DFARS 252.227-7018 was from
the clause itself.

DoD organizations visited offered general training and guidance for personnel to refer
to for additional information on the SBIR program; however, training was voluntary,
and guidance was basic. For example, the DoD organizations visited did not require
personnel to attend any type of SBIR training that discussed intellectual property
protections. Different legal and SBIR communities across DoD provided voluntary
trainings on intellectual property and SBIR in general, but they did not provide detailed
intellectual property training specific to the SBIR Program. Furthermore, DoD OSBP
SBIR Office officials issued basic guidance on intellectual property protections in the
SBIR Program, but acknowledged the guidance could be difficult to locate. In addition,
some DoD personnel believed contractors were not always aware of their rights and
agreed training on the SBIR Program would be beneficial. DoD OSBP should develop
single, overarching guidance and training that provides for the uniform application of
intellectual property protections, including the use and application of the assertion
table, across DoD.


Personnel Did Not Report To SBA On Proposed Phase III
Contracts Awarded To Other Than the SBIR Awardee
USAMRAA, NAVSEA, NAVAIR, and AFRL contracting personnel
did not include a SBA notification in the contract file
                                                                        The
for any of the nine SBIR Phase III contracts awarded                 pre-award
to companies other than the SBIR awardee that                       notification
                                                               requirement outlined
developed the technology. SBA SBIR Policy Directive
                                                                in SBA SBIR Policy
section 4(c)(8) requires agencies to notify SBA before         Directive was unclear
award of any such contracts; however, the pre-award              and did not define
notification requirement outlined in SBA SBIR Policy              when it applied.
Directive was unclear and did not define when it applied.
In addition, DoD personnel interpreted the requirement
differently. For example, the Air Force SBIR contracting officer, NAVAIR SBIR Program
attorney, and NAVAIR SBIR Deputy Project Manager believed a notification was not
required in cases where a contract was awarded to the company that owned the




                                                                                        DODIG-2014-049 │ 9
Finding



                 SBIR data. NAVSEA contracting personnel and the USAMRAA contracting officer were
                 unaware of the requirement. After reading the requirement, NAVSEA and USAMRMC
                 SBIR Program attorneys believed the requirement applied to planned contracts
                 awarded to companies other than the original developers. The Director of the Navy SBIR
                 Program stated multiple interpretations existed on the requirement and clarification
                 was required. The Air Force SBIR contracting officer also stated that clarification would
                 be beneficial.

                 In addition, SBA SBIR Policy Directive sections 4(c)(8) and 9(a)(12) use the terms
                 “small business concern” and “SBIR awardee” interchangeably when referring to the
                 two requirements to report SBIR Phase III contracts awarded to other than the SBIR
                 developer, both annually and before award. Section 638, title 15, United States Code
                 subsections j(2)(C) and j(3)(C) only used the term “small business concern” when
                 directing SBA to modify the policy directives. The SBA SBIR Policy Directive does not
                 define who a “SBIR awardee” is within the reporting requirements. It is unclear if
                 use of the terms “small business concern” and “SBIR awardee” only apply to the small
                 businesses that originally developed a SBIR invention, or if the terms apply to companies
                 purchasing the SBIR data rights.      DoD OSBP should develop clear, standardized
                 procedures for DoD personnel to follop on when and how to report SBIR Phase III
                 awards to other than the SBIR developer to SBA.


                 Personnel Relied on Inconsistent Policies
                 USAMRMC, USAMRAA, NAVSEA, NAVAIR, and AFRL personnel
                 relied on inconsistent policies for the application of                 DoD
                 intellectual property protections within the SBIR                  personnel
                                                                                     relied on
                 Program.     DoD personnel relied on inconsistent
                                                                               inconsistent policies
                 policies in the SBA SBIR Policy Directive and                to determine the start
                 DFARS 252.227-7018 to determine the start and                 and the length of the
                 the length of the protection period afforded to                 protection period
                                                                                    afforded to
                 SBIR data. According to SBA SBIR Policy Directive                  SBIR data.
                 section 8(b)(2), the protection period starts when
                 the last deliverable under the contract is delivered. The
                 protection period will be extended if the SBIR data is protected and referenced under a
                 subsequent SBIR contract, even if the protection period previously expired. According
                 to DFARS 252.227-7018 b(4)(i), project completion determines the protection period
                 and DFARS is silent on whether the protection period can be extended or revived.




10 │ DODIG-2014-049
                                                                                                  Finding



Personnel at sites visited agreed inconsistences existed in the SBA SBIR Policy Directive
and DFARS 252.227-7018. DoD personnel noted the inconsistencies should be addressed
and generally stated they follow DFARS.      For example, the NAVSEA SBIR Program
attorney and the Intellectual Property attorney stated they followed DFARS but did not
know what they would do if they encountered a case of expired data rights because
clear guidance was unavailable. Furthermore, DoD personnel interpreted the DFARS
language differently. For example:

          •	 The Air Force SBIR contracting officer believed the protection period could
            be extended—but not renewed—after it expired. A NAVSEA Intellectual
            Property attorney and the USAMRAA SBIR contracting officer agreed the
            protection period could be extended.

          •	 The NAVAIR SBIR Deputy Project Manager believed the SBIR protection
            period could be extended by subsequent contracts and be renewed if expired.

          •	 A NAVAIR patent attorney interpreted the DFARS language to disallow for any
            type of extension.

DoD personnel need consistent policy to administer the SBIR Program. DoD’s inconsistent
interpretation of unclear SBIR Program requirements may hinder program oversight
and weaken the protections over small business intellectual property within the
SBIR Program. In addition, DoD organizations may face complications in exercising
their rights to SBIR data without a clear, standardized interpretation of existing SBIR
policy.   The Director, Defense Procurement and Acquisition Policy, should address
inconsistencies between DFARS 252.227-7018 and the SBA SBIR Policy Directive
regarding intellectual property protections. In addition, DoD OSBP should develop
guidance that provides for the uniform application of intellectual property protections
across DoD.


No Documentation of Contractor Intellectual Property
Complaints
DoD OSBP SBIR, Army, Navy, and Air Force SBIR Program Offices, and USAMRMC,
USAMRAA, NAVSEA, NAVAIR, and AFRL personnel did not have any documented
contractor intellectual property complaints within the SBIR Program. Personnel at
sites visited were unable to identify a specific case of when SBIR Phase III intellectual
property was mishandled or infringed upon, but they acknowledged a lack of a tracking
mechanism to which they could refer. Discussions of any instances of intellectual
property complaints were anecdotal. Federal and DoD regulations in effect during our




                                                                                        DODIG-2014-049 │ 11
Finding



                 audit did not require personnel to track general or SBIR-related intellectual property
                 concerns or complaints.

                 USAMRMC, USAMRAA, NAVSEA, NAVAIR, and AFRL personnel believed contractor
                 intellectual property complaints did not exist or were based on a contractor’s lack of
                 knowledge about their rights or the SBIR Program. DoD personnel explained contracting
                 officers and small business representatives work closely with SBIR contractors so their
                 questions are addressed before they elevate to the level of a complaint or concern. DoD
                 personnel also believed small business intellectual property complaints were mostly
                 anecdotal, were based on fear or a lack of knowledge, or were between the small
                 business and the prime contractor. For example, the Air Force Commercialization
                 Readiness Program Manager believed small business claims were fear-based and had no
                 basis regarding intellectual property infringement. Because of the absence of specific
                 examples of the improper treatment of intellectual property within the SBIR Program,
                 we are not making a recommendation.


                 Accurate Tracking Mechanisms Are Needed
                 SBA and DoD could not identify a complete universe of SBIR Phase III contract awards;
                 neither had mechanisms in place to fully track all SBIR Phase III contracts. Section 638,
                 title 15, United States Code, subsection (k) required SBA to develop and maintain
                 databases in 2001 capable of tracking SBIR efforts. In response, SBA developed the
                 SBA Technology Resources Access Network Database.          SBA personnel updated the
                 SBA SBIR Policy Directive in 2012 to address database-tracking efforts related to
                 SBIR commercialization; however, DoD personnel stated the database is not useful to
                 them. The Director of the Navy Office of Small Business Programs and the Army SBIR
                 Office Program Manager explained SBA had not implemented an effective SBIR tracking
                 mechanism and cited a lack of SBA resources and a lack of technical knowledge as
                 possible obstacles specific to SBA. DoD OSBP SBIR Office officials acknowledged DoD
                 had not established an inclusive tracking system, and DoD personnel explained the
                 difficulty in doing so. Cited obstacles included:

                          •	 Phase III SBIRs are funded with non-SBIR funds and cannot be easily tracked
                             by the program of record;

                          •	 Phase III SBIRs can be awarded by the Government and prime contractors;
                             however, policies and regulations did not mandate any overarching contractor
                             reporting of commercialization data; and




12 │ DODIG-2014-049
                                                                                                                                          Finding



               •	 The company that developed the SBIR technology may have sold its rights
                   or entered into an agreement with a prime contractor and therefore may
                   not know, or could not speak to, the status of the SBIR technology.

Recent legislation now requires SBIR Phase III tracking. The
FY 2012 National Defense Authorization Act, section 5165,                                                Recent
“Commercialization Success,” subsection (qq)(2), requires the                                          legislation
head of each Federal agency to establish a system to measure                                          now requires
                                                                                                      SBIR Phase III
the success of SBIR Phase III awards.                            The 22 contracts
                                                                                                        tracking.
we reviewed did not fall within this SBIR Phase III
reporting requirement, which requires a tracking mechanism
by December 31, 2013. Furthermore, FY 2012 National Defense
Authorization Act section 5138, “Technology Insertion Reporting Requirements,”
requires the inclusion of SBIR Phase III award information in the annual SBIR report
submitted to Congress. However, as of the time of our audit, DoD OSBP SBIR did not
have a tracking and reporting system in place to fully reflect the successes of the
SBIR Program.


Personnel Used Unreliable Reporting Systems
Government personnel did not have an available database to fully track SBIR
award information. As a result, DoD SBIR personnel used incomplete and, at times,
unreliable reporting systems, FPDS-NG7 and the Company Commercialization Report
Database,8 to track SBIR Phase III contracts to support the success of a congressionally
authorized program. The Army SBIR Program Manager and DoD OSBP SBIR, USAMRMC,
USAMRAA, and NAVSEA personnel discussed the unreliability of information found in
both systems. For example:

               •	 FPDS-NG was limited to Government-awarded SBIR Phase III contracts. In
                   addition, the quality of information in FPDS-NG depended upon the quality
                   of data contracting staff input. For example, a USAMRAA contracting officer
                   explained FPDS-NG would not always accept information entered into the
                   system by contracting staff, so they would select different options until

	 7	
       FPDS-NG is an automated system that collects and reports on Federal procurement data. It is the single authoritative
       repository for Federal procurement data and generates reports to multiple parties, including the President, Congress, and
       the public. Government contracting offices enter data into FPDS-NG and are ultimately responsible for the accuracy of the
       information. The General Services Administration contractor manages FPDS-NG.
	 8	
       The Company Commercialization Report Database captures the quantitative commercialization results of a firm’s past
       SBIR Phase II and III projects. SBIR firms are responsible for entering information into the database. Information is used
       to calculate a commercialization achievement index. The index acts like a gauge on the commercialization history of that
       firm’s participation in the SBIR Program, and awarding agencies uses it to help evaluate proposals. DoD OSBP manages the
       Company Commercialization Report Database.




                                                                                                                                DODIG-2014-049 │ 13
Finding



                            FPDS-NG accepted something. Both the Government Accountability Office
                            and the DoD Inspector General reported on the inaccuracy of SBIR data
                            in FPDS-NG.

                         •	 Contractors were not legally required to maintain data in the Company
                            Commercialization Report Database. In addition, the USAMRMC SBIR Project
                            Manager explained some contractors may be hesitant to report Phase III
                            commercialization or may overstate SBIR Phase III successes to obtain a
                            more desirable commercialization achievement index ranking. The Army
                            SBIR Program Manager stated information in the database was hard to
                            verify and should be treated as misleading until followed up on.

                 DoD OSBP SBIR Office officials were aware of the reporting limitations and data
                 inaccuracies and identified steps to mitigate some of them when reporting on SBIR
                 successes. According to officials, in order to reliably measure performance of the
                 SBIR Program, DoD personnel assess the accuracy of information in the Company
                 Commercialization Report Database to the data in FPDS-NG. One official explained the
                 DoD OSBP SBIR Office performs an annual check in the Company Commercialization
                 Report Database to improve the extent and accuracy of contractor reported information.
                 According to the DoD OSBP official, the common identified issues include companies
                 not reporting all its SBIR Phase II awards, duplicate entries, and inappropriate
                 reporting of commercialization awards or revenues. In addition, officials stated they
                 cannot force businesses to report Phase III awards because they are no longer under a
                 Government funded SBIR contract.

                 Service SBIR program offices used different methods to verify information used to
                 report SBIR successes to SBA and Congress.

                         •	 The Army SBIR Program Manager explained that his office used the Army
                            Management Portal to capture SBIR Phase I and II information and contacted
                            all past SBIR Phase II awardees to determine if the awardee received any
                            SBIR Phase III contracts.

                         •	 The NAVAIR SBIR Deputy Project Manager explained that the Navy used the
                            Program Manager Database to track all SBIR contracts, including Phase III.

                         •	 AFRL personnel explained that the Air Force used the Air Force SBIR Database
                            to track SBIR Phase I and II contracts, but it did not use the database to track
                            SBIR Phase III.




14 │ DODIG-2014-049
                                                                                                                                         Finding



We initially selected 32 contracts coded in FPDS-NG as SBIR Phase III contracts. We
determined DoD personnel improperly coded 10 of the 32 contracts with a total base
contract value9 of about $508.7 million.                           U.S. Army Corps of Engineers Louisville,
NAVSEA, and AFRL contracting personnel corrected all 10 of the identified contracts in
FPDS-NG to reflect the contracts’ non-SBIR status accurately. DoD OSBP should develop
a means to increase the accuracy of reporting for SBIR Phase III contracts.


Congressional Inquiry into Tracking and Reporting Efforts
The Under Secretary of Defense for Acquisition, Technology, and Logistics noted DoD’s
reliance on FPDS-NG and the Company Commercialization Report Database when
responding to the March 5, 2013, Committee on Small Business and Entrepreneurship’s
inquiries into the SBIR Program. The committee questioned the status of DoD’s efforts
to address the provisions of the FY 2012 National Defense Authorization Act, including
SBIR Phase III reporting efforts. Overall, the Under Secretary of Defense for Acquisition,
Technology, and Logistics responded:

               •	 DoD tracked all SBIR Phase III direct contracts through FPDS-NG. Data was
                   reviewed for accuracy to avoid coding errors.

               •	 SBIR contractors were required to report all commercialization data, including
                   SBIR Phase III contracts, as part of the Company Commercialization Report.10

               •	 DoD was able to track all direct SBIR Phase I, II, and III contracts; however,
                   available data systems could not capture transitions to programs of record or
                   fielded systems.

               •	 General Services Administration must modify FPDS-NG and other systems to
                   collect information on transitions to programs of record or fielded systems.




	9	
       The combined base award value excludes any amounts for option periods and includes the maximum allowable amount
       for delivery-order type contracts and basic ordering agreements. For multiple award-type contracts, the base award
       value includes the total maximum amount for the solicitation. This represents the total base award value of all contracts
       awarded under a particular solicitation.
	10	
       During our review, policies and regulations encouraged contractors to report commercialization data, but none mandated
       any type of contractor reporting. For example, DoD incentivizes contractors to report commercialization data in the
       Company Commercialization Report Database since it is used in the evaluation of future proposals. In addition, the FY 2012
       National Defense Authorization Act, section 5165 requires agencies, no later than December 31, 2013, to establish a system
       to measure the success of small business concerns. Participants that do not meet minimum commercialization rates cannot
       participate in the SBIR Program for 1 year.




                                                                                                                               DODIG-2014-049 │ 15
Finding



                 Conclusion
                 The House Armed Services Committee was concerned with protecting the intellectual
                 property rights of small businesses when doing business with DoD; however, we did
                 not identify any inappropriate use of intellectual property during the audit. USAMRAA,
                 NAVSEA, NAVAIR, and AFRL contracting personnel properly awarded SBIR Phase III
                 contracts to other than small businesses and considered intellectual property rights in
                 the SBIR Phase III contracts reviewed. DoD personnel believed intellectual property
                 complaints did not exist or were based on a contractor’s lack of knowledge about
                 their rights or the SBIR Program. However, USAMRMC, USAMRAA NAVSEA, NAVAIR,
                 and AFRL personnel inconsistently followed intellectual property protections in the
                 SBIR Program because of unclear or inconsistent policy requirements. In addition,
                 DoD OSBP SBIR, Army, Navy, and Air Force SBIR Program Offices, USAMRMC, USAMRAA,
                 NAVSEA, NAVAIR, and AFRL personnel could not identify the complete universe of
                 DoD SBIR Phase III contracts because effective tracking mechanisms or other metrics
                 were not in place. DoD OSBP SBIR officials were; however, aware of the challenges in
                 tracking and reporting SBIR award information and took steps to mitigate some of the
                 inaccuracies when reporting on and assessing DoD SBIR Program accomplishments. As
                 a result, DoD’s program oversight and the protections over small business intellectual
                 property within the SBIR Program are weakened, and information provided to Congress
                 is not complete.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend the Administrator, DoD Office of Small Business Programs, Small
                 Business Innovation Research Office:

                         a.	 Issue single, overarching guidance and related training for all DoD
                            organizations to follow that will provide for the uniform application of
                            intellectual property protections across DoD. Guidance and training
                            should include:

                                    •	 standard intellectual property protections within the Small
                                      Business Innovation Research Program, including the use and
                                      application of the data assertions table; and

                                    •	 when the protection period begins and when it can be extended.




16 │ DODIG-2014-049
                                                                                                 Finding



Administrator, DoD Office of Small Business Programs, Small Business
Innovation Research Office Comments
The Deputy Director, Policy and Procurement, DoD Office of Small Business Programs,
responding for the Administrator, DoD Office of Small Business Programs, Small
Business Innovation Research Office, agreed stating that a December 2008 Under
Secretary of Defense Acquisition Technology and Logistics Memorandum, “Small
Business Innovation Research (SBIR) Program Phase III Guidance,” provided overarching
policy guidance. The deputy director specifically noted the guidance provides that
Phase III award must be accorded Small Business Innovation Research data rights. She
further commented that the DoD Office of Small Business Programs would address
the specific topics of standard intellectual property protections, use of the data
assertions table, when the protection period begins, and when the protection period can
be extended, during the Small Business Innovation Research/Small Business Technology
Transfer annual training workshop planned for June 2014.


Our Response
The deputy director’s comments partially addressed the recommendation. We agree that
the December 2008 memorandum provides policy guidance. The two-page memorandum
provided a basic overview of some of the aspects related to Small Business Innovation
Research Phase III contracts. However, it did not provide sufficient information to
address Small Business Innovation Research intellectual property as a whole. For
example, the memorandum noted that Small Business Innovation Research technical
data rights extended to Phase III, but it did not provide any additional information on
intellectual property protections, including the use of the assertions table.

The deputy director’s comments to address specific intellectual property topics during
a training workshop planned for June 2014 partially addressed our recommendation for
training. Addressing specific intellectual property protection topics during the planned
workshop may be useful to those persons able to attend; however, all DoD personnel
who work with Small Business Innovation Research contracts should have access to this
clarifying information, not just those attending the workshop. Small Business Innovation
Research personnel from the various organizations we visited during the audit were
not consistent when interpreting the existing guidance and would benefit from the
information presented during the training workshop.

Accordingly, we request the Administrator, DoD Office of Small Business Programs,
Small Business Innovation Research Office, provide comments in response to the
final report that address the actions planned to issue guidance specific to intellectual




                                                                                       DODIG-2014-049 │ 17
Finding



                 property and the use of the assertions table and to provide training and guidance
                 accessible to all DoD personnel responsible that work with Small Business Innovation
                 Research contracts.

                         b.	 Issue clarifying guidance to address the requirement for organizations
                            to provide the Small Business Administration a complete and timely
                            notification detailing why a proposed Small Business Innovation
                            Research Phase III contract could not be awarded to the developer.
                            The clarifying guidance should provide a single DoD interpretation of
                            the requirement and address reporting requirements outlined in the
                            Small Business Administration Small Business Innovation Research
                            Policy Directive.

                 Administrator, DoD Office of Small Business Programs, Small Business
                 Innovation Research Office Comments
                 The Deputy Director, Policy and Procurement, DoD Office of Small Business Programs,
                 responding for the Administrator, DoD Office of Small Business Programs, Small
                 Business Innovation Research Office, agreed stating that the DoD Office of Small
                 Business Programs will address timely Small Business Administration notification
                 requirements and will reference the relevant section of this report during their annual
                 training workshop scheduled for June 2014.


                 Our Response
                 Comments from the deputy director partially addressed the recommendation.
                 Discussing Small Business notifications at the workshop will be beneficial to those
                 that attend; however, all DoD personnel who work with Small Business Innovation
                 Research Phase III contracts should have access to this clarifying information, not just
                 those attending the workshop. Small Business Innovation Research personnel from the
                 various organizations we visited during the audit were not consistent when interpreting
                 the existing guidance and would benefit from clarifying guidance.

                 Accordingly, we request the Administrator, DoD Office of Small Business Programs,
                 Small Business Innovation Research Office, provide comments in response to the
                 final report that address the actions planned to issue clarifying guidance addressing
                 the requirement for organizations to provide the Small Business Administration a
                 complete and timely notification detailing why a proposed Small Business Innovation
                 Research Phase III contract could not be awarded to the developer.




18 │ DODIG-2014-049
                                                                                               Finding



        c.	 Issue guidance for database users to refer to when recording Small
           Business Innovation Research information in existing databases to
           increase the accuracy and uniformity of information used to track and
           report on the DoD Small Business Innovation Research Program.

Administrator, DoD Office of Small Business Programs, Small Business
Innovation Research Office Comments
The Deputy Director, Policy and Procurement, DoD Office of Small Business Programs,
responding for the Administrator, DoD Office of Small Business Programs, Small
Business Innovation Research Office, agreed stating that DoD Office of Small Business
Programs will review DoD Small Business Innovation Research databases and verify
written guidance exists for every system. The annual training workshop, planned
for June 10, 2014, will address databases to increase the accuracy and uniformity of
database information.


Our Response
Comments from the deputy director partially addressed the recommendation.
Discussing the accuracy and uniformity of database information at the workshop will
be beneficial to those that attend. However, this information should be accessible to
all database users. Further, the sole act of identifying DoD Small Business Innovation
Research database guidance does not ensure that the existing guidance provides
adequate instruction to assist users in reporting accurate and uniform information.
The deputy director’s comments will meet the intent of our recommendation if the
DoD Office of Small Business Programs reviews the database guidance that is identified
for adequate instruction on data accuracy and uniformity and, following the review,
issue additional guidance to address any gaps in guidance.

Accordingly, we request the Administrator, DoD Office of Small Business Programs,
Small Business Innovation Research Office provide comments in response to the
final report to clarify whether the DoD Office of Small Business Programs will review
existing DoD Small Business Innovation Research database guidance for adequacy, issue
necessary guidance to address gaps identified during the review, and if applicable,
the estimated dates of completion.




                                                                                     DODIG-2014-049 │ 19
Finding



                 Recommendation 2
                 We recommend the Director, Defense Procurement and Acquisition Policy to
                 address inconsistences between the Defense Federal Acquisition Regulation
                 Supplement 252.227-7018 and the Small Business Administration Small Business
                 Innovation Research Policy Directive regarding intellectual property protections,
                 specifically on when the Small Business Innovation Research data protection
                 period begins, when it can be extended, and whether the protection period can
                 be revived after expiration.


                 The Director, Defense Procurement and Acquisition Policy Comments
                 The Director, Defense Procurement and Acquisition Policy, agreed stating DoD would
                 work with the Small Business Administration to address identified inconsistencies
                 between the Defense Federal Acquisition Regulation Supplement and the Small
                 Business Administration Policy Directive regarding intellectual property. DoD already
                 proposed revisions to the Defense Federal Acquisition Regulation Supplement clauses
                 to clarify and better implement the initiation and extension of the protection period
                 as provided in the Small Business Administration Small Business Innovation Research
                 Policy Directive.


                 Our Response
                 Comments from the Director, Defense Procurement and Acquisition Policy addressed all
                 specifics of the recommendation, and no further comments are required.




20 │ DODIG-2014-049
                                                                                                                                  Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from December 2012 through January 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


Universe and Sample Information
Our Federal Procurement Data System-Next Generation (FPDS-NG) queries identified
that DoD contracting personnel awarded 40 Small Business Innovation Research
(SBIR) Phase III C- and D-type contracts1 to other than small businesses with a total
combined base contract value of about $625.8 million2 during FY 2010 to FY 2012
(August 31, 2012) that met the scope of our review. We nonstatistically selected the
locations reviewed and identified below partially to reduce travel costs associated
with this audit. We then selected a nonstatistical sample of 32 SBIR Phase III contracts,
with a total combined base contract value of about $753.6 million to review. Site
selection was limited to the contracts we could identify in FPDS-NG. Our universe
included SBIR Phase III C- and D-type contracts continental United States contracting
offices awarded to large or medium sized businesses during FY 2010 to FY 2012
(August 31, 2012). Contract selection was not limited to C- and D-type contracts. We
selected all 18 contracts identified in FPDS-NG as SBIR Phase III contracts awarded
to other than small businesses and, when possible, selected 3 small business SBIR
Phase III contracts to review at a given location. Contract selection was based upon a
range of obligated dollar values, the frequency with which the contracting officer awarded
SBIR Phase III contracts, and the frequency with which a contractor received SBIR
Phase III contracts.

	1	
    Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII [Procurement Instrument Identification] Number,”
    defines C-type contracts as “Contracts of all types except indefinite delivery contracts, and sales contracts,” and D-type
    contracts as “Indefinite-delivery contracts.”
	2	
    The combined base award value excludes any amounts for option periods and includes the maximum allowable amount
    for delivery-order type contracts and basic ordering agreements. For multiple award-type contracts, the base award
    value includes the total maximum amount for the solicitation. This represents the total base award value of all contracts
    awarded under a particular solicitation.




                                                                                                                             DODIG-2014-049 │ 21
Appendixes



                 We also selected contracts representing the different fiscal years as much as possible:

                               •	 U.S. Army Medical Research Acquisition Activity (USAMRAA),3 Fort Detrick,
                                   Maryland, 4 contracts, valued at about $6.2 million.

                               •	 U.S. Army Corps of Engineers, Louisville, Kentucky, 8 contracts, valued at
                                   about $450 million.

                               •	 Naval Air Systems Command (NAVAIR), Patuxent River, Maryland, 5 contracts,
                                   valued at about $161.6 million.

                               •	 Naval Sea Systems Command (NAVSEA), Washington Navy Yard, DC,
                                   6 contracts, valued at about $90.2 million.

                               •	 Air Force Research Laboratory (AFRL), Wright Patterson Air Force Base,
                                   Ohio, 9 contracts, valued at about $45.5 million.

                 Of the 32 contracts initially selected, we excluded all 8 U.S. Army Corps of Engineers
                 contracts, 1 NAVSEA contract, and 1 AFRL contract with a total base contract value
                 of about $508.7 million, because contracting personnel miscoded the contracts in
                 FPDS-NG as SBIR Phase III contracts; they were not SBIR contracts. In total, we reviewed
                 22 contracts with a total base contract value of about $244.9 million. Of the 22 contracts,
                 11 were awarded to other than small businesses, with a combined base contract value
                 of about $176 million. One of the four contracts USAMRAA contracting personnel
                 awarded was for a SBIR Phase II enhancement. We kept this contract in our sample
                 because the contract was later modified to include SBIR Phase III.


                 Review of Documentation and Interviews
                 Our review was limited to the SBIR Phase III contract and supporting information
                 within the contract file. Supporting information from the contract file included:

                               •	 Acquisition plans;

                               •	 Assertions lists;

                               •	 Central Contractor Registry documentation;

                               •	 Contract action reports;


                 	 3	
                        U.S. Army Medical Research and Materiel Command is the Army’s medical materiel developer, with responsibility for
                        medical research, development, and acquisition and medical logistics management. USAMRAA is the contracting element
                        of the U.S. Army Medical Research and Materiel Command and provides support to the Command headquarters and its
                        worldwide network of laboratories and medical logistics organizations.




22 │ DODIG-2014-049
                                                                                          Appendixes



         •	 Contractor proposals;

         •	 Dunn and Bradstreet reports;

         •	 Justifications and approvals for other than full and open competition;

         •	 Legal reviews;

         •	 Novation agreements;

         •	 Online Representation and Certification documentation;

         •	 Pre- and post-business clearance memorandums;

         •	 Small business coordination records;

         •	 System for Award Management documentation; and

         •	 Technical advisory reports.

NAVSEA contracting personnel could not locate one contract file, but they provided the
draft justification and approval for other than full and open competition. We reviewed
information in the draft justification and approval as well as up-to-date contractor
representations in the System for Award Management and the contract action report
in FPDS-NG.

The audit team interviewed individuals at Small Business Administration (SBA),
Office of Technology; DoD Office of Small Business Programs; Department of the Navy
Office of Small Business Programs; Army, Navy, and Air Force SBIR Program Offices;
and small business representatives, contracting officers, legal counsel, and SBIR
Program managers at U.S. Army Medical Research and Materiel Command, USAMRAA,
NAVAIR, NAVSEA, and AFRL. We interviewed DoD personnel to determine their roles
and responsibilities in the SBIR Program, how small business intellectual property
was protected, and whether there had been any intellectual property complaints
in the SBIR Program.

We reviewed applicable Federal and DoD criteria related to the SBIR Program. The
specific criteria reviewed include:

         •	 Report 112-479, “National Defense Authorization Act For Fiscal Year 2013,
           Report of the Committee on Armed Services House of Representatives on
           H.R. 4310,” May 11, 2012;




                                                                                     DODIG-2014-049 │ 23
Appendixes



                          •	 FY 2012 National Defense Authorization Act Title LI, “SBIR and STTR [Small
                               Business Technology Transfer] Reauthorization;”

                          •	 Section 638, title 15, United States Code, “Research and Development” (2007);

                          •	 Section 638, title 15, United States Code, “Research and Development” (2012);

                          •	 Federal Acquisition Regulation Part 27, “Patents, Data, and Copyrights;”

                          •	 Defense Federal Acquisition Regulation Supplement 252.227-7018, “Rights
                               in Noncommercial Technical Data and Computer Software—Small Business
                               Innovation Research Program;”

                          •	 2012 SBA SBIR Policy Directive;

                          •	 2002 SBA SBIR Policy Directive; and

                          •	 DoD SBIR Desk Reference for Contracting and Payment, 8th Edition.

                 In addition, we reviewed Defense Federal Acquisition Regulation Supplement open
                 case 2010-D001, “Defense Federal Acquisition Regulation Supplement; Patents, Data,
                 and Copyrights.”


                 Use of Computer-Processed Data
                 We relied on computer-processed data from FPDS-NG to determine the contracting
                 organizations to visit and to perform nonstatistical sample selections for the audit.
                 FPDS-NG collected procurement data. In addition, we used the Electronic Document
                 Access Database to obtain contract documentation, such as the contract and modifications
                 to the contract, before our site visits to the activities reviewed. To assess the accuracy of
                 computer-processed data, we tested the information obtained from the two databases
                 by verifying the data against official records at the visited contracting activities. Our
                 testing identified miscoded contract data within FPDS-NG which contracting personnel
                 corrected during the audit.       We determined that the data within FPDS-NG and
                 the Electronic Document Access Database were sufficiently reliable for the purposes of
                 our review.

                 USAMRAA contracting personnel used the USAMRAA Paperless Acquisition System to
                 create, store, and maintain electronic contracts. We compared the information obtained
                 to that in FPDS-NG and the Electronic Document Access Database. We found the
                 information sufficiently reliable for the purposes of this report.




24 │ DODIG-2014-049
                                                                                         Appendixes




Appendix B
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Small Business
Administration (SBA) Inspector General, Department of Defense Inspector General
(DoD IG), and Air Force Audit Agency (AFAA) issued 11 reports discussing the SBIR
Program. Unrestricted GAO reports can be accessed at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm. Air Force
Audit Agency reports can be accessed from .mil domains at https://afkm.wpafb.af.mil/
ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with Common Access Cards.
Unrestricted SBA reports can be accessed at http://www.sba.gov/office-of-inspector-
general/863.


GAO
GAO Report 14-116R, “Small Business Innovation Research: Data Rights Protections,”
November 4, 2013

GAO Report 13-286, “Defense Technology Development–Technology Transition Programs
Support Military Users, but Opportunities Exist to Improve Measurement of Outcomes,”
March 7, 2013

GAO Report 11-21, “Space Acquisitions‒Challenges in Commercializing Technologies
Developed Under the Small Business Innovation Research Program,” November 10, 2010

GAO Report 09-956T, “Small Business Innovation Research‒Observations on Agencies’
Data Collection and Eligibility Determination Efforts,” August 6, 2009


DoD IG
DoDIG Report No. D-2009-048, “DoD Small Business Innovation Research Program,”
January 30, 2009


AFAA
AFAA Report F2010-0004-FC3000, “Small Business Innovation Research,” July 7, 2010

AFAA Report F2010-0014-FCR000, “Small Business Innovation Research Program
Warner Robins Air Logistics Center Robins AFB GA,” March 10, 2010




                                                                                    DODIG-2014-049 │ 25
Appendixes



                 AFAA Report F2010-0028-FCI000, “Small Business Innovation Research Ogden Air
                 Logistics Center Hill AFB UT,” February 1, 2010

                 AFAA Report F2010-0004-FCQ000, “Small Business Innovation Research Air Force
                 Research Laboratory Materials and Manufacturing Directorate Wright-Patterson AFB
                 OH,” November 10, 2009

                 AFAA Report F2010-0014-FCI000, “Small Business Innovation Research Detachment 7,
                 Air Force Research Laboratory Edwards AFB CA,” November 3, 2009


                 SBA
                 SBA IG Report 11-02, “Usefulness of the Small Business Innovation Research Tech-Net
                 Database,” November 12, 2010




26 │ DODIG-2014-049
                                                                                                                                  Appendixes




Appendix C
Criteria
The following expands upon criteria used during our review:


NDAA FY 2012–Sections 5101 to 5168, “SBIR and STTR
Reauthorization”
FY 2012 National Defense Authorization Act (NDAA), section 5138, “Technology
Insertion Reporting Requirements,” amends section 638, title 15, United States
Code (15 U.S.C. § 638) by adding subsection (kk)1 which states:

                  the annual SBIR [Small Business Innovation Research] or STTR [Small
                  Business Technology Transfer] report to Congress by the Administration
                  under subsection (b)(7) shall include, for each Phase III award—
                    (1)	 the name of the agency or component of the agency or the non-
                          Federal source of capital making the Phase III award;
                    (2)	 the name of the small business concern or individual receiving the
                          Phase III award; and
                    (3)	 the dollar amount of the Phase III award.


FY 2012 NDAA section 5165, “Commercialization Success,” amends 15 U.S.C. § 638 by
adding subsection (qq)(2)(a), which states no later than December 31, 2013:

                  the head of each Federal agency participating in the SBIR or STTR
                  Program shall—
                    (i)	 establish a system to measure, where appropriate, the success of
                          small business concerns with respect to the receipt of Phase III
                          SBIR or STTR awards for projects that have received Phase I SBIR
                          or STTR awards;
                    (ii)	 establish a minimum performance standard for small business
                          concerns with respect to the receipt of Phase III SBIR or STTR
                          awards for projects that have received Phase I SBIR or STTR
                          awards; and
                    (iii)	begin evaluating, each fiscal year, whether each small business
                          concern that received a Phase I SBIR or STTR award from the
                          agency meets the minimum performance standard established
                          under clause (ii).

	1	
      Subsection kk states the annual SBIR report to Congress shall include for each Phase III award the name of the small
      business concern or individual receiving the award but does not include the requirement to report the name of other than
      small businesses that received Phase III awards.



                                                                                                                             DODIG-2014-049 │ 27
Appendixes



                 Section 638, Title 15, United States Code “Research and
                 Development”
                 Section 638, Title 15, United States Code, subsection j(2)(C), states the Small Business
                 Administration (SBA) SBIR Policy Directive will include:

                                   procedures to ensure, to the extent practicable, that an agency which
                                   intends to pursue research, development, or production of a technology
                                   developed by a small business concern under an SBIR Program enters
                                   into follow-on, non-SBIR funding agreements with the small business
                                   concern for such research, development, or production.


                 Section 638, Title 15, United States Code subsection r(4) was added in 2012 and states,
                 “to the greatest extent practicable, Federal agencies and Federal prime contractors shall
                 issue Phase III awards relating to technology, including sole-source awards, to the SBIR
                 award recipient that developed the technology.”

                 Section 638, Title 15, United States Code subsection j(3)(C)2 states the SBA SBIR Policy
                 Directive will require:

                                   agencies to report to the Administration, not less frequently than
                                   annually, all instances in which an agency pursued research,
                                   development, or production of a technology developed by a small
                                   business concern using an award made under the SBIR Program of
                                   that agency, and determined that it was not practicable to enter into
                                   a follow on non-SBIR program funding agreement with the small
                                   business concern, which report shall include, at a minimum—(i) the
                                   reasons why the follow-on funding agreement with the small business
                                   concern was not practicable; (ii) the identity of the entity with which
                                   the agency contracted to perform the research, development, or
                                   production; and (iii) a description of the type of funding agreement
                                   under which the research, development, or production was obtained.


                 SBA SBIR Policy Directive
                 The SBA SBIR Policy Directive does not restrict small business innovators from selling
                 their businesses or their Phase III rights to another company. Furthermore, SBA SBIR
                 Policy Directive section 4(c)(5) states, “there is no limit on the number, duration, type,
                 or dollar value of Phase III awards made to a business concern,” and SBA SBIR Policy
                 Directive section 4(c)(6) states, “the small business size limits for Phase I and II awards
                 do not apply to Phase III awards.”


                 	2	
                       The SBA SBIR Policy Directive section 9(a)(12) includes this annual reporting requirement. In 2012, it was amended to state
                       that agencies are required to report this information to SBA within 15 business days of the agency’s award.




28 │ DODIG-2014-049
                                                                                                                                       Appendixes



SBA SBIR Policy Directive section 4(c)(7)3 states:

                 For Phase III, Congress intends that agencies or their Government-
                 owned, contractor-operated facilities, Federally-funded research and
                 development centers, or Government prime contractors that pursue
                 research/research & development or production developed under
                 the SBIR Program, give preference, including sole-source awards, to
                 the awardee that developed the technology. In fact, the Act requires
                 reporting to SBA of all instances in which an agency pursues research,
                 development, or production of a technology developed by an SBIR
                 awardee, with a concern other than the one that developed the
                 SBIR technology.


SBA SBIR Policy Directive section 4(c)(8) states:

                 For Phase III, agencies, their Government-owned, contractor-operated
                 facilities, or Federally-funded research and development centers, that
                 intend to pursue Research or Research and Development, production,
                 services, or any combination thereof of a technology developed by
                 an SBIR awardee of that agency, with an entity other than that SBIR
                 awardee, must notify SBA in writing prior to such an award.

                 This notification must include, at a minimum: (a) the reasons why the
                 follow-on funding agreement with the SBIR awardee is not practicable;
                 (b) the identity of the entity with which the agency intends to make
                 an award to perform research, development, or production; and (c)
                 a description of the type of funding award under which the research,
                 development, or production will be obtained.”


SBA may appeal an agency’s decision to pursue Phase III work with a business
concern other than the SBIR awardee that developed the technology to the head of the
contracting activity.

SBA SBIR Policy Directive section 8(b)(2)4 states:

                 SBIR agencies must protect from disclosure and non-governmental use
                 all SBIR technical data developed from work performed under an SBIR
                 funding agreement for a period of not less than four years from delivery


	 3	
    In 2012, this section was amended to state, to the greatest extent practicable, SBIR Phase III awards shall be made to the
    SBIR awardee that developed the technology. Agencies are now required to document how they provided this preference
    to the SBIR awardee that developed the technology. In addition, the 2012 update now states, “the Act requires SBA report
    all instances in which an agency pursues research, development, or production of a technology developed by an SBIR
    awardee, with a business concern or entity other than the one that developed the SBIR technology.”
	4	
    SBA SBIR Policy Directive section 8(b)(4) states that section 8(b)(2) will be inserted into all SBIR phase contracts as part of
    the SBIR data rights clause and are non-negotiable and must not be the subject of negotiations pertaining to an SBIR
    Phase III award, or diminished or removed during award administration.




                                                                                                                                  DODIG-2014-049 │ 29
Appendixes



                            of the last deliverable under that agreement (either Phase I, Phase II, or
                            Federally-funded SBIR Phase III) [...].

                            Agencies are released from obligation to protect SBIR data upon
                            expiration of the protection period except that any such data that is
                            also protected and referenced under a subsequent SBIR award must
                            remain protected through the protection period of that subsequent SBIR
                            award. For example, if a Phase III award is issued within or after the
                            Phase II data rights protection period and the Phase III award refers to
                            and protects data developed and protected under the Phase II award,
                            then that data must continue to be protected through the Phase III
                            protection period. Agencies have discretion to adopt a protection period
                            longer than four years.


                 DFARS 252.227-7018 – “Rights in Noncommercial Technical
                 Data and Computer Software–SBIR Program”
                 Defense Federal Acquisition Regulation Supplement (DFARS) 252.227-7018 b(1)(vi)
                 states the Government shall have unlimited rights in technical data, including computer
                 software documentation, or computer software generated under this contract that
                 are—SBIR data upon expiration of the SBIR data rights period.

                 DFARS 252.227-7018 b(4)(i) states:

                            Except for technical data, including computer software documentation,
                            or computer software in which the Government has unlimited rights
                            under paragraph (b)(1) of this clause, the Government shall have SBIR
                            data rights in all technical data or computer software generated under
                            this contract during the period commencing with contract award and
                            ending upon the date five years after completion of the project from
                            which such data were generated.


                 Furthermore, DFARS 252.227-7018b(4)(ii) states:

                            The Government may not release or disclose SBIR data to any person,
                            other than its support services contractors, except—(A) As expressly
                            permitted by the Contractor; (B) For evaluation purposes; or (C) A
                            release, disclosure, or use that is necessary for emergency repair or
                            overhaul of items operated by the Government.




30 │ DODIG-2014-049
                                                                                                                                          Appendixes




Appendix D
Contracts Reviewed
                                                                                                                            Base Award
                                                                                             Award       Business Size in
     Agency            Contract            Description of Supplies or Services Procured                                      Amount1
                                                                                              Date          FPDS-NG          (Millions)
                                       Development of a Rod-In-Crossflow specific to
 1   AFRL        FA8650-10-C-3038      the F-35 and evaluate its acoustics suppression      2/26/2010         OTSB              $.20
                                       performance
                                       Implement enhancements to the Anubis unmanned
 2   AFRL        FA8650-10-C-7013                                                            3/1/2010         OTSB              1.18
                                       air vehicle systems
                                       Performing improvements in sensor system,
                                       aerodynamics, propulsion, communication system,
 3   AFRL        FA8650-10-C-7037                                                           7/20/2010         OTSB              3.93
                                       and ground station for the Silver Fox C3 Small
                                       Unmanned Ariel Systems
                                       Research and Development of an unmanned air
 4   AFRL        FA8650-11-C-7063                                                          11/18/2010         OTSB2              .34
                                       vehicle for gunships
                                       Research and Development to further develop,
 5   AFRL        FA8650-10-D-1908      demonstrate, and productize advanced investment      9/27/2010          SB               5.00
                                       decision support technologies
                                       Continued Research and Development of technology
                                       countermeasures that mitigate the risk to
 6   AFRL        FA8650-11-C-1194                                                           9/15/2011          SB               3.89
                                       hardware-based tampering and malware targeting
                                       hardware components
                                       Conduct Research and Develop/Deliver any residual
 7   AFRL        FA8650-11-C-7187      hardware for Modular C3ISR Mission Payloads for      9/30/20113         SB              26.80
                                       Unmanned Aerial Systems Support Jammer Cueing
                                       Design, development, enhancement, and
 8   AFRL        FA8650-12-D-1372      commercialization of nanostructure analysis          3/30/2012          SB               3.00
                                       technologies

Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




                                                                                                                                   DODIG-2014-049 │ 31
Appendixes



Contracts Reviewed (cont’d)
                                                                                                                                  Base Award
                                                                                                    Award      Business Size in
      Agency                Contract          Description of Supplies or Services Procured                                         Amount1
                                                                                                     Date         FPDS-NG          (Millions)
                                          Conversion of AGM-88B HARM missiles into
  9   NAVAIR          N00019-10-C-0065    AGM-88E Advanced Anti-Radiation Guided Missile           7/30/2010        OTSB             50.07
                                          All-Up Round Missiles
                                          Engineering and logistics support for the AGM-88E
 10   NAVAIR          N00019-11-G-0014                                                             6/23/2011        OTSB             50.00
                                          Advanced Anti-Radiation Guided Missile
 11   NAVAIR          N00019-11-P-4017    Maintenance of Environment Stabilization System          9/29/2011         SB                .03
                                          Procurement of multifunctional color displays, spares
 12   NAVAIR          N00019-12-C-0062    and non-recurring engineering to support retrofit of     8/14/2012         SB4              7.14
                                          existing displays in the T-45 aircraft
                                          Fabricate, integrate, assemble, test and deliver
 13   NAVAIR          N00019-12-C-2005                                                            10/31/2011        OTSB             54.40
                                          AGM-88E Advanced Anti-Radiation Guided Missile
                                          Delivery of Shipyard Workload Integrated
 14   NAVSEA          N00024-10-C-41035                                                             7/1/2010         SB4              1.64
                                          Forecasting Tool
                                          Engineering services for developing, implementing
 15   NAVSEA          N00024-11-C-5204    and supporting Undersea Warfare Sensor/Processor        11/19/2010         SB              15.89
                                          Technology Insertion for AN/SQQ-89(V)
                                          Engineering Services in support of the AN/UYQ-100
 16   NAVSEA          N00024-11-C-5205                                                            11/17/2010        OTSB               .13
                                          USWDSS
                                          Development and Production for the Low Profile
 17   NAVSEA          N00024-12-C-6249                                                             7/11/2012         SB              10.63
                                          Photonics Mast
                                          Hardware and software product development and
 18   NAVSEA          N00024-12-C-6311    integration of the Mission Package Services software      8/6/2012        OTSB              4.42
                                          and the Mission Package Portable Control Station
 19   USAMRAA         W81XWH-10-C-0237    Support for the Pharmacovigilance Center                  7/9/2010         SB4               .92
                                          Enhanced analysis database for the
 20   USAMRAA         W81XWH-10-C-0255                                                             9/24/2010        OTSB              3.74
                                          Pharmacovigilance Center

Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.




32 │ DODIG-2014-049
                                                                                                                                                                                                    Appendixes



Contracts Reviewed (cont’d)
                                                                                                                                                                                    Base Award
                                                                                                                                      Award              Business Size in
         Agency                     Contract                    Description of Supplies or Services Procured                                                                         Amount1
                                                                                                                                       Date                 FPDS-NG                  (Millions)
  21       USAMRAA         W81XWH-11-P-0660                Procurement of 100 A-SCOPE kits                                         9/15/2011                     SB                        .33
                                                           Validate and demonstrate Rugged Mobile Logistics
  22      USAMRAA          W81XWH-12-C-00846                                                                                         1/9/2012                    SB                       1.26
                                                           System


	 1	
       The combined base award value excludes amounts for option periods and includes the maximum allowable amount for delivery order-type contracts and basic ordering agreements.
	 2	
       Miscoded in FPDS-NG. We determined that the contractor was a small business at the time of award.
	 3	
       An advanced cost agreement was in effect on July 15, 2011, before contract award.
	4	
       Miscoded in FPDS-NG. We determined that the contractor was a large business at the time of award.
	 5	
       NAVSEA contracting personnel could not locate the contract file.
	 6	
       USAMRAA contracting personnel initially awarded the contract as a SBIR Phase II enhancement, but they modified it on September 17, 2012, to place SBIR Phase III on the contract. It was valued
       at approximately $150,000 for the Proof of Principle Smart Weapons Case and delivery of a triage system and associated tags. The contract remained in our review because it was modified to
       include SBIR Phase III.


  Acronyms Used in Appendix D
       AFRL                 Air Force Research Laboratory
       AGM- 88B HARM        High-Speed Anti-Radiation Missile
       C3ISR                Command, Control, Communication, Intelligence, Surveillance and Reconnaissance
       FPDS-NG              Federal Procurement Data System-Next Generation
       NAVAIR               Naval Air Systems Command
       NAVSEA               Naval Sea Systems Command
       OTSB                 Other Than Small Business
       SB                   Small Business
       SBIR                 Small Business Innovation Research
       USAMRAA              United States Army Medical Research Acquisition Activity




                                                                                                                                                                                              DODIG-2014-049 │ 33
Management Comments




                 Management Comments
                 DoD Office of Small Business Programs




34 │ DODIG-2014-049
                                                 Management Comments



DoD Office of Small Business Programs (cont’d)




                                                       DODIG-2014-049 │ 35
Management Comments



                 Defense Procurement and Acquisition Policy




36 │ DODIG-2014-049
                                                              Acronyms and Abbreviations




Acronyms and Abbreviations
      AFRL Air Force Research Laboratory
    DFARS Defense Federal Acquisition Regulation Supplement
 DoD OSBP DoD Office of Small Business Programs
       FAR Federal Acquisition Regulation
  FPDS-NG Federal Procurement Data System-Next Generation
   NAVAIR Naval Air Systems Command
   NAVSEA Naval Sea Systems Command
       SBA Small Business Administration
      SBIR Small Business Innovation Research
 USAMRAA U.S. Army Medical Research Acquisition Activity
 USAMRMC U.S. Army Medical Research and Materiel Command
     U.S.C. United States Code




                                                                         DODIG-2014-049 │ 37
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
